No.______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
MONWELL DWIGHT BOOTH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Evangelo Arvanetes, a member of the Bar of this Court, hereby certify that
on December 4, 2020, one copy of the Motion to Proceed In Forma Pauperis and
Petition for Writ of Certiorari with an Appendix in the above-entitled case were
mailed, first class postage prepaid, to Noel Francisco, Solicitor General, Office of
the Solicitor General, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001 and to Zeno B. Baucus, Assistant U.S. Attorney,
United States Attorney’s Office, Billings Division, 2601 Second St., N., Ste. 3200,
Billings, MT 59101, counsel for the respondent herein. I further certify that all
parties required to be served have been served.

Respectfully submitted this 4th day of December, 2020.
/s/ Evangelo Arvanetes
EVANGELO ARVANETES
Assistant Federal Defender
Federal Defenders of Montana
2702 Montana Avenue, Suite 101
Billings, MT 59101
Telephone: (406) 259-2459
Counsel of Petitioner

